INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES (G-417)

                                                                   July 14, 2005

To:    Margaret Carpenter

From: Walter Stachnik

Re:    Access to FPPS (OIG-417)

During a recent investigation, we learned that budget staff in the Office of Financial
Management (OFM) have unrestricted access to the Federal Personnel and Payroll
System (FPPS). Budget staff need FPPS access to process certain personnel actions (e.g.,
promotions) controlled by OFM. However, FPPS information is sensitive and subject to
the Privacy Act, and therefore FPPS access should be restricted to the extent possible.

OFM informed us that the FPPS system is designed to allow unrestricted access to staff
that process personnel actions in it. The only way to limit access is to submit a formal
request to the Department of the Interior, National Business Center, which has
responsibility for the FPPS. If approved by Interior, the request would result in a
contract modification between the Commission and Interior to modify FPPS by limiting
access as appropriate. OFM is currently drafting such a request.

OFM also informed us that it has informally counseled its budget staff on the proper use
of the FPPS. However, because of staff turnover and other reasons, it believes that more
formal training on FPPS access is now appropriate. This training would be conducted by
the Commission’s Privacy Act Officer.

We are recommending that OFM restrict FPPS access and train its budget staff, as it
plans to do.

       Recommendation A

       OFM should submit a formal request to the Department of Interior to restrict the
       FPPS access of its budget staff to the extent needed to perform their duties.

       Recommendation B

       OFM should request that the Privacy Act Officer (within the Office of Filings and
       Information Services) provide training to the budget staff on the proper use of
                                                                                   2

      Commission automated systems and any other sensitive personnel information
      handled by the budget staff. The training should be documented.

cc:   Mary Head
      Ken Fogash
      Diane Galvin
      Bill Lenox
      Jim McConnell
      Darlene Pryor
      Barbara Stance
      Celia Winter
